Le
I

C@QCKLE

Le g al Briefs E-Mail Address:
Est. 1923 contact@cocklelegalbriefs.com

1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850 No. 19-1361

2311 Douglas Street
Omaha, Nebraska 68102-1214

RICHARD JORDAN AND RICKY CHASE,
Petitioners,

Vv.
GEORGIA DEPARTMENT OF CORRECTIONS,
Respondent.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 11th day of August, 2020, send out
from Omaha, NE 1 package(s) containing 3 copies of the BRIEF IN OPPOSITION in the above entitled case. All parties
required to be served have been served by third-party commercial carrier for delivery within 3 calendar days. Packages were
plainly addressed to the following:

SEE ATTACHED

To be filed for:
CHRISTOPHER M. CARR
Attorney General of Georgia
ANDREW A. PINSON
Solicitor General
Counsel of Record
BETH A. BURTON
Deputy Attorney General
TINA PIPER
Senior Assistant Attorney General
DREW F. WALDBESER
Assistant Solicitor General
REBECCA DOBRAS
Assistant Attorney General
OFFICE OF THE GEORGIA
ATTORNEY GENERAL
40 Capitol Square, SW
Atlanta, Georgia 30334
(404) 651-9453
apinson@law.ga.gov
Counsel for the State of Georgia

Subscribed and sworn to before me this 1th day of August, 2020.
Iam duly authorized under the laws of the State of Nebraska to administer oaths.

thes Ondaw-h, hh

Affiant ——SSS*« 9083

    

GENERAL NOTARY-State of Nebraska
RENEE J. GOSS
A. My Comm. Exp. September 5, 2023

 

Notary Public
Amir H. Ali
Counsel of Record for Petitioners
Roderick & Solange MacArthur Justice Center
777 6th St. NW
11th Floor
Washington, DC 20001
amir.ali@macarthurjustice.org
202-869-3434
